APPLICATION AND
SOLICITATION
DISCLOSURE
VISA PLATINUM VARIABLE/VISA PLATINUM

Interest Rates and Interest Charges
Annual Percentage Rate (APR) for
Purchases

Visa Platinum Variable

9.25%

This APR will vary with the market based on the Prime Rate.
Visa Platinum

13.99%
APR for Balance Transfers

Visa Platinum Variable
9.25%
This APR will vary with the market based on the Prime Rate.

APR for Cash Advances

Visa Platinum
13.99%
Visa Platinum Variable
9.25%
This APR will vary with the market based on the Prime Rate.
Visa Platinum
13.99%

How to Avoid Paying Interest on
Purchases
For Credit Card Tips from the
Consumer Financial Protection Bureau
Fees
Transaction Fees
- Balance Transfer Fee
- Cash Advance Fee
- Foreign Transaction Fee
Penalty Fees
- Late Payment Fee
- Returned Payment Fee

Your due date is at least 25 days after the close of each billing cycle. We will
not charge you any interest on purchases if you pay your entire balance by
the due date each month.
To learn more about factors to consider when applying for or using a
credit card, visit the website of the Consumer Financial Protection
Bureau at http://www.consumerfinance.gov/learnmore.

None
None
1.00% of each transaction in U.S. dollars
Up to $25.00
Up to $25.00

How We Will Calculate Your Balance:
We use a method called "average daily balance (including new purchases)."
Effective Date:
The information about the costs of the card described in this application is accurate as of: April 21, 2020
This information may have changed after that date. To find out what may have changed, contact the Credit Union.

SEE NEXT PAGE for more important information about your account.
© CUNA Mutual Group 2009, 10, 12, 16 All Rights Reserved

Charter Oak Federal Credit Union

00607254-MXC10-P-1-051517 (MXC101-E)

For California Borrowers, the Visa Platinum Variable and Visa Platinum are secured credit cards. Credit extended
under this credit card account is secured by various personal property and money including, but not limited to:
(a) any goods you purchase with this account, (b) any shares you specifically pledge as collateral for this
account on a separate Pledge of Shares, (c) all shares you have in any individual or joint account with the Credit
Union excluding shares in an Individual Retirement Account or in any other account that would lose special tax
treatment under state or federal law, and (d) collateral securing other loans you have with the Credit Union
excluding dwellings. Notwithstanding the foregoing, you acknowledge and agree that during any periods when
you are a covered borrower under the Military Lending Act your credit card will be secured by any specific
Pledge of Shares you grant us but will not be secured by all shares you have in any individual or joint account
with the Credit Union. For clarity, you will not be deemed a covered borrower if: (i) you establish your credit card
account when you are not a covered borrower; or (ii) you cease to be a covered borrower.
Other Fees & Disclosures:
Late Payment Fee:
$25.00 or the amount of the required minimum payment, whichever is less, if you are one or more days late in making a
payment.
Returned Payment Fee:
$25.00 or the amount of the required minimum payment, whichever is less.
Card Replacement Fee:
$25.00.
Rush Fee:
$25.00.

© CUNA Mutual Group 2009, 10, 12, 16 All Rights Reserved

Charter Oak Federal Credit Union

00607254-MXC10-P-1-051517 (MXC101-E)

